No. 19-161

IN THE

Supreme Court of the United States
DEPARTMENT OF HOMELAND SECURITY, ET AL.,
Petitioners,
vs.
VIJAYAKUMAR THURAISSIGIAM,
Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF PETITIONERS

KENT S. SCHEIDEGGER
KYMBERLEE C. STAPLETON
Counsel of Record
Criminal Justice Legal Fdn.
2131 L Street
Sacramento, CA 95816
(916) 446-0345
briefs@cjlf.org
Attorneys for Amicus Curiae
Criminal Justice Legal Foundation

QUESTION PRESENTED
Whether 8 U. S. C. § 1252(e)(2), removing habeas
corpus jurisdiction as to some alien removal cases,
violates the Suspension Clause of the Constitution as
applied to an inadmissible alien apprehended immediately after illegal entry.

(i)

TABLE OF CONTENTS
Question presented.. . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . iv
Interest of amicus curiae. . . . . . . . . . . . . . . . . . . . . . . 1
Summary of facts and case.. . . . . . . . . . . . . . . . . . . . . 2
Summary of argument. . . . . . . . . . . . . . . . . . . . . . . . . 4
Argument. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I
Some aliens are holders of “the privilege of the
writ of habeas corpus,” but those with little
connection to this country are not. . . . . . . . . . . . . . 5
A. Holders of the privilege. . . . . . . . . . . . . . . . . . 5
B. Part of the population. . . . . . . . . . . . . . . . . . . 8
C. Common law and founding-era cases. . . . . . . 9
II
Boumediene should be limited to its facts and not
preclude decision on this point.. . . . . . . . . . . . . . . 13
Conclusion.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

(iii)

iv

TABLE OF AUTHORITIES
Cases
Boumediene v. Bush, 553 U. S. 723 (2008). . . 7, 13, 14
Case of the Hottentot Venus, 104 Eng. Rep. 344
(K. B. 1810). . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 11
Case of Three Spanish Sailors, 96 Eng. Rep. 775
(C. P. 1779). . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 15
Corfield v. Coryell, 6 F. Cas. 546 (No. 3,230)
(CC ED Pa. 1823). . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Du Castro’s Case, 92 Eng. Rep. 816 (K. B. 1697). . . 15
Flast v. Cohen, 392 U. S. 83 (1968). . . . . . . . . . . . . . 16
Glossip v. Gross, 576 U. S. __, 135 S. Ct. 2726,
192 L. Ed. 2d 761 (2015).. . . . . . . . . . . . . . . . . . . . 16
Hein v. Freedom from Religion Foundation, Inc.,
551 U. S. 587 (2007). . . . . . . . . . . . . . . . . . . . . . . . 16
INS v. St. Cyr, 533 U. S. 289 (2001). . . . . . . . . . . 7, 10
Johnson v. Eisentrager, 339 U. S. 763
(1950). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 13, 15
King v. Schiever, 97 Eng. Rep. 551
(K. B. 1759). . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 15
Lockington’s Case, 5 Am. L. J. 92 (Penn. 1813). . . . 11
Marbury v. Madison, 1 Cranch (5 U. S.) 137
(1803). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Schiever’s Case, 96 Eng. Rep. 1249 (K. B. 1759). . . 12

v

Shaughnessy v. United States ex rel. Mezei,
345 U. S. 206 (1953). . . . . . . . . . . . . . . . . . . . . . . . 13
Silverman v. United States, 365 U. S. 505 (1961).. . 16
Sommersett v. Stewart, 98 Eng. Rep. 499
(K. B. 1772). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Thuraissigiam v. Dept. of Homeland Security,
287 F. Supp. 3d 1077 (SD Cal. 2018). . . . . . . . . . . . 3
Thuraissigiam v. Dept. of Homeland Security,
917 F. 3d 1097 (CA9 2019). . . . . . . . . . . . . . . . . . 2, 3
Williams v. Taylor, 529 U. S. 362 (2000). . . . . . . . . . 6
Yamataya v. Fisher, 189 U. S. 86 (1903).. . . . . . . . 8, 9
United States Constitution
U. S. Const. Art. I, § 9, cl. 2. . . . . . . . . . . . . . . . . . . . . 5
United States Statute
8 U. S. C. § 1252(e). . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Secondary Authorities
Declaration of Independence (1776). . . . . . . . . . . . . . 5
Hamburger, Beyond Protection, 109 Colum. L. Rev.
1823 (2009). . . . . . . . . . . . . 5, 6, 7, 12, 13, 14, 15, 16
Natelson, The Original Meaning of the Privileges and
Immunities Clause, 43 Ga. L. Rev. 1117 (2009). . . 5
Scheidegger, Habeas Corpus, Relitigation,
and the Legislative Power, 98 Colum. L. Rev. 888
(1998). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

IN THE

Supreme Court of the United States
DEPARTMENT OF HOMELAND SECURITY, ET AL.,
Petitioners,
vs.
VIJAYAKUMAR THURAISSIGIAM,
Respondent.
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF PETITIONERS

INTEREST OF AMICUS CURIAE
The Criminal Justice Legal Foundation (CJLF)1 is a
non-profit California corporation organized to participate in litigation relating to the criminal justice system
as it affects the public interest. CJLF seeks to bring the
constitutional protection of the accused into balance
with the rights of the victim and of society to rapid,
efficient, and reliable determination of guilt and swift
execution of punishment.
Although this is not a criminal case and Thuraissigiam is not accused or convicted of any major crime, the
case has important implications for cases involving

1. The parties have consented to the filing of this brief. No
counsel for a party authored this brief in whole or in part. No
counsel, party, or any person or entity other than amicus
curiae CJLF made a monetary contribution to its preparation
or submission.

2

major crimes. The Court of Appeals took a broad view
of the Suspension Clause, extending the reach of
constitutionally required habeas corpus jurisdiction far
beyond the limits understood at the time of adoption.
That expansive view threatens the ability of Congress
to deal with aliens engaged in terrorism or other major
crimes by detaining them or swiftly removing them.
That result is contrary to the interests CJLF was
formed to protect.
SUMMARY OF FACTS AND CASE
Vijayakumar Thuraissigiam is a citizen of Sri Lanka
who fled his country for Mexico in June 2016.
Thuraissigiam v. Dept. of Homeland Security, 917 F. 3d
1097, 1101 (CA9 2019). Late one evening in February
2017, Thuraissigiam crossed the U. S. border approximately four miles west of the San Ysidro port of entry.
He was apprehended nearly immediately (25 yards
north of the border) by U. S. Customs and Border
Protection (“CBP”) agents. Ibid. Because he lacked the
documentation required by 8 U. S. C. § 1182(a)(7), he
was determined to be excludable and was placed in
expedited removal proceedings. Ibid.
Thuraissigiam claimed a fear of returning to Sri
Lanka and, pursuant to 8 U. S. C. § 1225(b)(1)(A), was
referred for an interview with an asylum officer. Ibid.
Based on the interview, the asylum officer determined
that Thuraissigiam had not established a credible fear
of persecution. This determination was approved by the
asylum officer’s supervisor. Pursuant to 8 U. S. C.
§ 1225(b)(1)(B)(iii)(III), Thuraissigiam requested review
of the decision by an immigration judge. On de novo
review, the immigration judge affirmed the negative
credible fear finding. The case was then returned to
U. S. Immigration and Customs Enforcement (“ICE”)

3

for Thuraissigiam’s removal. An expedited removal
order was entered. Ibid.
In January 2018, Thuraissigiam filed a habeas
corpus petition in the U. S. District Court for the
Southern District of California arguing that his expedited removal order violated his statutory, regulatory,
and constitutional rights. He sought to vacate the order
and be given a “ ‘new, meaningful opportunity to apply
for asylum and other relief from removal.’ ” Id., at
1101-1102.
The District Court dismissed Thuraissigiam’s
petition for lack of subject matter jurisdiction concluding that 8 U. S. C. § 1252(e) does not authorize jurisdiction over his claims. Thuraissigiam v. Dept. of Homeland Security, 287 F. Supp. 3d 1077, 1080 (SD Cal.
2018). The District Court also rejected his argument
that foreclosing judicial review of his claims violated his
rights under the Suspension Clause. In so holding, the
District Court concluded that Thuraissigiam could
invoke the Suspension Clause, but because 8 U. S. C.
§ 1252(e) provides three limited avenues of judicial
review of expedited removal orders, the statute does not
suspend the writ, and therefore does not violate the
Suspension Clause. See 287 F. Supp. 3d, at 1082.
Thuraissigiam appealed. The Ninth Circuit reversed
and remanded. While the court agreed that the statute
precludes habeas corpus review of Thuraissigiam’s
claims, it held that this preclusion violates the Suspension Clause as applied to him. See 917 F. 3d, at 1100.
This Court granted certiorari on October 18, 2019.

4

SUMMARY OF ARGUMENT
The Constitution’s guarantee of the “Privilege of the
Writ of Habeas Corpus” necessarily raises the question
of who are the holders of the privilege. Lawyers of the
founding era understood a “privilege” to be something
granted by government only to certain persons or
places, unlike universal rights. In Yamataya v. Fisher,
this Court recognized the distinction between aliens
who had become “part of the population” and those
who had not.
The common law and founding era cases regularly
cited for the proposition that aliens were entitled to
habeas corpus review of their detention actually demonstrate that the law recognized distinctions among
aliens. Those living in the country owed a duty of “local
allegiance” with a corresponding entitlement to protection of the law, while those with more tenuous connections did not.
There is no constitutional requirement that Congress maintain the availability of habeas corpus for
aliens at its high-water mark. The understanding of the
privilege at common law is the constitutional minimum,
and anything beyond that is within the discretion of
Congress.
Boumediene v. Bush is a deeply flawed decision,
based on an inadequate historical analysis, that extended the constitutional entitlement to the writ
beyond the original understanding. While there is no
need in this case to overrule Boumediene, this Court
need not and should not extend it to an additional
category of aliens.

5

ARGUMENT
I. Some aliens are holders of “the privilege
of the writ of habeas corpus,” but those with
little connection to this country are not.
A. Holders of the Privilege.
Article I, § 9, cl. 2, of the Constitution provides, “The
Privilege of the Writ of Habeas Corpus shall not be
suspended, unless when in Cases of Rebellion or Invasion the public Safety may require it.” As understood in
the Founding era, a privilege necessarily had holders.
Unlike “unalienable Rights” with which “all Men” are
“endowed by their Creator,” see Declaration of Independence, para. 2 (1776), a privilege was something
conferred by government, and not on everyone. See
Natelson, The Original Meaning of the Privileges and
Immunities Clause, 43 Ga. L. Rev. 1117, 1130-1133
(2009). Natelson summarizes the definitions of “privilege” from popular legal dictionaries of the day as
containing four elements: “(1) a benefit or advantage;
(2) conferred by positive law; (3) on a person or place;
(4) contrary to what the rule would be in absence of the
privilege.” Id., at 1130 (citing Jacob, A New LawDictionary (1762), “then the most popular legal dictionary in America”); id., at 1130-1131 (noting congruent
definitions in other eighteenth century law dictionaries)); see also Hamburger, Beyond Protection, 109
Colum. L. Rev. 1823, 1836 (2009) (contrasting natural
rights with government-conferred privileges).2

2. A dictum in Justice Bushrod Washington’s solo opinion in
Corfield v. Coryell, 6 F. Cas. 546, 551-552 (No. 3,230) (CC ED
Pa. 1823) implying that “privileges” were natural rights was
unsupported by authority, contained serious internal
contradictions, and did not represent the general opinion at the
time, according to Natelson. See 43 Ga. L. Rev., at 1122-1125.

6

Hamburger identifies the holders of the privilege of
the writ of habeas corpus within the context of the
larger concept of persons who are “within the protection of the law” as distinguished from those who are
“beyond the protection of the law.” See Hamburger,
109 Colum. L. Rev., at 1827-1828. Protection of the law
was part of a fundamental concept of the reciprocal
relation between allegiance to the sovereign and protection by the sovereign. See id., at 1838-1840. Even so,
protection was not limited to citizens. Foreigners within
a country owed a duty of “local allegiance,” an obligation to obey the law and a reciprocal entitlement to
protection of it. See id., at 1847. This “local allegiance”
concept did not apply to all foreigners, however.
“[I]f foreigners came to the country in a manner
that created a presumption of allegiance to the
government and its law, they too had a right to
protection. Other foreigners, however, even if
visiting, had no right to protection. Although some
of them might receive a partial grant of protection
from the government, this was only a matter of
legislative and executive policy.” Ibid.
The latter point is important. The fact that habeas
corpus review of particular issues has been extended to
particular persons at various points in history does not
mean that similarly situated persons are constitutionally entitled to habeas review in similar circumstances
today despite a subsequently enacted statute to the
contrary. Congress has extended and retracted various
aspects of habeas corpus throughout history. See, e.g.,
Williams v. Taylor, 529 U. S. 362, 410-413 (2000) (43year-old rule of de novo review of state judgments
replaced by 28 U. S. C. § 2254(d)); Scheidegger, Habeas
Corpus, Relitigation, and the Legislative Power, 98
Colum. L. Rev. 888, 932, 945-953 (1998). As to any
person who is not a holder of the constitutional privi-

7

lege, Congress can retract a form of review it previously
extended or retract a form of review that the courts
extended in the absence of a statute on point.
The constitutional limit should now be recognized
unequivocally as the limit understood at the time the
Constitution was adopted. It is high time to drop the
hedge words in the statement of INS v. St. Cyr, 533
U. S. 289, 301 (2001), that “at the absolute minimum,
the Suspension Clause protects the writ ‘as it existed in
1789.’ ” (Emphasis added). The Suspension Clause
protects the writ as it existed in 1789, period. See
Boumediene v. Bush, 553 U. S. 723, 833-834 (2008)
(Scalia, J., dissenting). Everything else is subject to
congressional modification. Restricting Congress’s
authority further than the original Constitution restricted it is a violation of the Constitution’s separation
of powers by the judiciary. Ibid. The legitimacy of
judicial review of statutes is premised on the rules set
forth in the Constitution being permanent until the
people change them through the amendment process.
See Marbury v. Madison, 1 Cranch (5 U. S.) 137, 176
(1803). The Suspension Clause cannot evolve to increase its scope any more than the original jurisdiction
of this Court at issue in Marbury could evolve to
embrace original writs to executive officers. Enforcing
the limits placed by the people until the people change
them by amendment is the whole point.
It is true, of course, that “at common law a petitioner’s status as an alien was not a categorical bar to
habeas corpus relief.” Boumediene, 553 U. S., at 747
(emphasis added). Yet it is equally true that a petitioner’s alien status is not irrelevant. Some aliens are
holders of the privilege, and some are not. See Hamburger, 109 Colum. L. Rev., at 1921-1922.

8

B. Part of the Population.
The fact that the United States has generously
extended constitutional protections to aliens living
within the country does not support a conclusion that
we must extend the full panoply of constitutional
protections to every alien who sets foot on United
States soil. The government’s ability to grant or deny
constitutional rights depends on whom that right was
placed in the Constitution to protect. See Johnson v.
Eisentrager, 339 U. S. 763, 770-771 (1950). “Mere
lawful presence in the country creates an implied
assurance of safe conduct and gives him certain rights;
they become more extensive and secure when [an alien]
makes preliminary declaration of intention to become
a citizen, and they expand to those of full citizenship
upon naturalization.” Id., at 770 (emphasis added).
“The alien, to whom the United States has been traditionally hospitable, has been accorded a generous and
ascending scale of rights as he increases his identity
with our society.” Ibid. The question in this case is
where Thuraissigiam is on that scale and where one
must be to be considered a holder of the privilege.
In Yamataya v. Fisher, 189 U. S. 86 (1903),3 this
Court used the term “part of the population” to describe the degree of association needed before an alien
acquired constitutional rights regarding admission and
removal, the same concept that Hamburger calls being
“within protection.” Yamataya was a citizen of Japan
who arrived on a ship, and there is no indication that
there was anything clandestine about her entry. Id., at
87. A few days later, upon further investigation, it was
determined that she was in fact a “person likely to

3. In the official reports, Yamataya is captioned “The Japanese
Immigrant Case,” see id., at 86, and n. 1, and it is often cited
that way.

9

become a public charge” and fell within a class of aliens
excluded from admission by statute. Ibid.
Yamataya filed a habeas petition in federal district
court claiming the procedure used did not provide her
with due process of law. Id., at 87-88. This Court did
not actually decide any constitutional questions. It held
that the relevant statutes should be interpreted to
provide notice and an opportunity to be heard. Id., at
100-101. Construing the statute through a constitutional avoidance lens, the Court held that it would be
improper for immigration authorities “arbitrarily to
cause an alien, who has entered the country, and has
become subject in all respects to its jurisdiction, and a
part of its population, although alleged to be illegally
here, to be taken into custody and deported without
giving him all opportunity to be heard....” Id., at 101
(emphasis added). The Court left
“on one side the question whether an alien can
rightfully invoke the due process clause of the
Constitution who has entered the country clandestinely, and who has been here for too brief a period
to have become, in any real sense, a part of our
population, before his right to remain is disputed
....” Id., at 100.
Exactly where Yamataya fell on the spectrum did not
need to be decided because her claim that she had not
been given due process should have been presented
through administrative channels. See id., at 102.
C. Common Law and Founding-Era Cases.
To determine the original understanding of who
held the “privilege of the writ of habeas corpus” in
1789, one must examine cases from the common law
preceding independence, the Founding era, and the
period after ratification of the Constitution but close

10

enough in time that they can reasonably be expected to
reflect the same view of the law. See St. Cyr, 533 U. S.,
at 301-302, and n. 16. These cases are consistent with
the view expressed in Johnson and Yamataya that
aliens who are “part of the population” are entitled to
the same privilege as citizens, but many with more
attenuated connection to the country are not.
In Sommersett v. Stewart, 98 Eng. Rep. 499 (K. B.
1772), Sommersett was a slave purchased in Africa and
taken to Virginia, where slavery was legal. His owner,
Stewart, brought him to England, where his advocates
argued it was not. See id., at 499. Although not originally from Britain or any of its possessions, he had been
brought into the British Empire legally and permanently. He could be considered a “part of its population” within the broad meaning of Yamataya, even if
not a citizen. The court heard his case on the merits
without objection and granted relief. See id., at 510.
The Case of the Hottentot Venus, 104 Eng. Rep. 344
(K. B. 1810) is similar. Saartje Baartman, a native of
South Africa and member of the Hottentot nation, was
said to be “remarkable for the formation of her person”
and was being exhibited to curious Londoners “under
the name of the Hottentot Venus.” Id., at 344. Third
parties, doubtless appalled by this spectacle, alleged
“that she had been clandestinely inveigled from the
Cape of Good Hope, without the knowledge of the
British Governor, (who extends his peculiar protection
in nature of a guardian over the Hottentot nation under
his government...) ....” Ibid. (emphasis added). Although
Ms. Baartman may not have been considered a British
subject in the strict sense of the word, neither was she
a stranger to the British Empire. The court evidently
regarded her as a resident of a British protectorate and

11

a person within the protection of the Crown.4 See id., at
344-345.
In Lockington’s Case, 5 Am. L. J. 92 (Penn. 1813),
the petitioner was a resident alien who had come to
reside in the United States before the war began. See
id., at 92. The Chief Justice of Pennsylvania expressly
distinguished the situation of such a resident alien from
a prisoner of war “brought among us by force; and his
interests were never, in any manner, blended with those
of the people of this country.” Id., at 97 (emphasis
added). On the merits, Lockington was found to be
properly in custody and was remanded. See id., at 103.
In contrast, aliens with weaker connections were
turned away by the courts. In Case of Three Spanish
Sailors, 96 Eng. Rep. 775 (C. P. 1779), the three sailors
were undisputedly captured as enemy aliens and
prisoners of war in the first instance, but they claimed
they had ceased to be such by their voluntary service on
an English merchant vessel. See id., at 775. The holding
was that on their own showing they were enemy aliens
and prisoners of war and as such the courts “can give
them no redress.” Id., at 776.
Even more compelling claims were turned away. In
King v. Schiever, 97 Eng. Rep. 551 (K. B. 1759),
Schiever was a Swedish subject who claimed he had
been forced into service on a French privateer before
the privateer was captured by the English. See id., at
551. He then became England’s prisoner of war.
Schiever produced an affidavit to support his petition
for habeas corpus that characterized him as a prisoner
of war and, like in Three Spanish Sailors, the court
denied relief. Id., at 551-552.
4. On motion of the Attorney General, the court appointed
investigators to determine if she was a willing participant and
dismissed the proceedings upon determining that she was. Ibid.

12

In another report of the same case, Schiever’s Case,
96 Eng. Rep. 1249 (K. B. 1759), there is a more extended report of the holding. From this report, it
appears that Schiever is a case that supports the
argument that aliens who are not “part of the population” or whose interests have never “blended” with the
people of the United States and are otherwise unconnected with the country are not eligible for habeas
relief.
“[Schiever] is the King’s prisoner of war, and we
have nothing to do in that case, nor can we grant an
habeas corpus to remove prisoners of war. His being
a native of a nation not at war does not alter the
case, for by that rule many French prisoners might
be set at liberty, as they have regiments of many
other kingdoms in their service, as Germans, Italians, &c.
“But, if the case be as this man represents it, he
will be discharged upon application to a Secretary of
State.” Id., at 1249.
Properly understood, Schiever refutes rather than
supports the proposition that alien prisoners of war
were holders of the privilege of habeas corpus. What he
and others received was a preliminary inquiry to
determine whether they were persons inside or outside
of allegiance and protection, and if found to be outside
their cases were dismissed. See Hamburger, 109
Colum. L. Rev., at 1889-1891.
Hamburger notes that the behavior of governors and
legislatures during this era also sheds light on who was
within the protection of the law, and thus a holder of
the habeas privilege, and who was not. For the executive to detain citizens in wartime without judicial
interference, a suspension of the writ by the legislature
was needed. See id., at 1914-1915. For aliens who were

13

subjects of hostile foreign entities,5 however, no suspension was thought to be necessary. See id., at 1932-1939.
The original understanding, then, is that some
aliens had sufficient connection to the country to be
entitled to the same habeas corpus privilege as citizens
and some did not. This understanding is consistent with
the assessment of Johnson v. Eisentrager, 339 U. S., at
770, that the rights of aliens lie on a scale which increases as they “increase[] [their] identity with our
society.” See supra, at 8.
There is no constitutional requirement that Congress calibrate the scale at the maximum level of
generosity that has existed at any time in our history.
It is immaterial that courts have in the past generally
allowed the use of habeas corpus to test the legality of
exclusion at the threshold. See Shaughnessy v. United
States ex rel. Mezei, 345 U. S. 206, 213 (1953). The
Constitution guarantees the privilege of the writ of
habeas corpus to the holders of the privilege as understood at the time of ratification; as to everyone else, the
decision is for Congress to make.
II. Boumediene should be limited to its facts
and not preclude decision on this point.
In Boumediene v. Bush, 553 U. S. 723 (2008), this
Court was asked to decide if noncitizen enemy alien
combatants captured abroad by the U. S. miliary and
detained at the United States Naval Station at
Guantanamo Bay, Cuba, were entitled to the constitutional privilege of habeas corpus. Id., at 732. As dis-

5. The requisite hostility could include an undeclared war against
a nonstate entity, such as the Barbary pirates. Contrary to
common belief, these are not new problems. See id., at 1934.

14

cussed supra, nearly six decades before Boumediene,
this Court was also asked in Eisentrager to decide if
noncitizen enemy aliens captured abroad by the U. S.
military and detained at the United States Armycontrolled Landsberg Prison in Germany were entitled
to the constitutional privilege of habeas corpus.
Eisentrager said no. Boumediene, however, said yes.
Boumediene was decided by a bare majority. It is a
deeply flawed opinion for the reasons explained at
length by Justice Scalia in dissent, joined by Chief
Justice Roberts, Justice Thomas, and Justice Alito. On
the territorial aspect of the case, the majority effectively
overruled the clear holding of Eisentrager without
admitting it was doing so. See id., at 835 (Scalia, J.,
dissenting). On the facts of the case, the conclusion was
utterly unsupported by history. “Despite three opening
briefs, three reply briefs, and support from a legion of
amici, petitioners have failed to identify a single case in
the history of Anglo-American law that supports their
claim to [habeas] jurisdiction” in the case “of aliens
captured and held outside sovereign territory.” Id., at
847; see also Hamburger, 109 Colum. L. Rev., at 1882,
and n. 195.
As scathing as the dissent’s criticisms were, Boumediene’s deficiencies went even further. Boumediene
looked to St. Cyr for guidance regarding the early
precedents this Court has relied upon when examining
the historical scope of the writ and broadly declared
that “[w]e know that at common law a petitioner’s
status as an alien was not a categorical bar to habeas
corpus relief.” Boumediene, 553 U. S., at 747. This
broad claim
“overlooks the crucial distinction between aliens
who were within protection and those who were
outside it. In the traditional understanding, it was
not disputed that all persons within protection,

15

regardless of their alienage, had the protection of
the law. In particular, the protection of the law was
enjoyed by all citizens, all lawfully visiting aliens in
amity, and even (to a lesser degree) licensed enemy
aliens. It is therefore to be expected that many
aliens could obtain writs of habeas. What is more
relevant is to understand which aliens could get
habeas. Once the question is thus narrowed, it can
be seen that habeas was not available to aliens
outside allegiance and protection and, indeed, could
never be given to some of them, notably prisoners of
war, whose status was incompatible with allegiance.
They did not owe allegiance and therefore did not
have the protection of the law.” Hamburger, 109
Colum. L. Rev., at 1888.
Without acknowledging what Eisentrager referred to
as the “inherent distinctions” between different categories of enemy aliens, see 339 U. S. at 769, Boumediene
further expounded “that common-law courts entertained habeas petitions brought by enemy aliens
detained in England—‘entertained’ at least in the sense
that the courts held hearings to determine the threshold question of entitlement to the writ.” Id., at 747
(citing to Sommersett’s Case, 20 How. St. Tr. 1 80-82
(1772); Case of Three Spanish Sailors, 96 Eng. Rep. 775
(C. P. 1779); King v. Schiever, 97 Eng. Rep. 551 (K. B.
1759); Du Castro’s Case, 92 Eng. Rep. 816 (K. B. 1697).
The “threshold question” in these cases involved
“preliminary proceedings about the status of the [petitioners]” to ascertain whether they were entitled to the
“privileges of Englishmen.” Hamburger, 109
Colum. L. Rev., at 1891 (emphasis added).
By lumping all aliens together in its discussion of
status, Boumediene ignored the important difference
between aliens with established ties to this country and
those without any. In Hamburger’s terms, some aliens

16

are “within protection” and some are “outside protection,” but Boumediene did not discuss the distinction.
See 109 Colum. L. Rev., at 1997. In Yamataya’s terms,
some aliens have become “part of the population” and
some have not. The statute at issue in Boumediene
might have been unconstitutional as applied to a legal
permanent resident alien who had been detained,
rightly or wrongly, as an alleged unlawful combatant
yet constitutional as applied to an otherwise similarly
situated alien who had never set foot in the United
States. These cases would be different in the same sense
that Lockington was different from Schiever. See supra,
at 11-12. Yet the opinion contains no discussion of these
differences.
The doctrine of stare decisis counsels that precedents should not be overturned lightly, but overruling
Boumediene is not the question before this Court. The
question is whether to extend it. “It is a necessary
concomitant of the doctrine of stare decisis that a
precedent is not always expanded to the limit of its
logic.” Hein v. Freedom from Religion Foundation, Inc.,
551 U. S. 587, 615 (2007) (plurality opinion). “We do
not extend Flast,6 but we also do not overrule it. We
leave Flast as we found it.” Ibid.; see also Silverman v.
United States, 365 U. S. 505, 512 (1961) (“by even a
fraction of an inch”).7
So in this case, the Court need not overrule Boumediene, but it should decline to extend it. The misguided
and incomplete historical analysis of that decision
6. Flast v. Cohen, 392 U. S. 83 (1968).
7. The concurrence in Hein would have overruled Flast, see id., at
618 (Scalia, J., concurring in the judgment), so the plurality
opinion is the decision on narrower grounds and controlling.
See Glossip v. Gross, 576 U. S. __, 135 S. Ct. 2726, 2738, n. 2,
192 L. Ed. 2d 761, 775, n. 2 (2015).

17

should not be extended to give a constitutional entitlement, beyond the reach of Congress, to another class of
aliens who are not “part of the population.” The question of unlawful combatants held in indefinite detention
can be reexamined if and when the occasion calls for it.
As a would-be immigrant whose only connection
with this country is stepping illegally a few yards inside
the border, Thuraissigiam is not a holder of the constitutional privilege of the writ of habeas corpus. Whether
and to what extent that writ is available to him is
entirely within the power of Congress to decide.
CONCLUSION
The decision of the Court of Appeals for the Ninth
Circuit should be reversed.
December, 2019
Respectfully submitted,
KYMBERLEE C. STAPLETON
Attorney for Amicus Curiae
Criminal Justice Legal Foundation

